Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




 Medical Equipment and Supply Claims with
   Invalid or Inactive Physician Numbers




                      JANET REHNQUIST
                      Inspector General

                        NOVEMBER 2001
                        OEI-03-01-00110
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

David Tawes, Project Leader                          Bambi Straw, Program Specialist
Cortney Hayflinger, Program Analyst


 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                   http://www.oig.hhs.gov/oei/
                         EXECUTIVE                      SUMMARY

PURPOSE

          This inspection examined Medicare payments for medical equipment and supply claims
          submitted with invalid or inactive unique physician identification numbers.


BACKGROUND

          Medicare beneficiaries covered by Part B are eligible to receive medical equipment and
          supplies deemed medically necessary by a physician. Medicare regulations require
          suppliers to provide the unique physician identification number (UPIN) of the physician
          who ordered the equipment and/or supplies when submitting a claim. Because Medicare
          payment for medical equipment and supplies is only authorized when items are ordered by
          a physician, claims with incorrect UPIN information should not be paid.

          The Consolidated Omnibus Budget Reconciliation Act of 1985 required the Centers for
          Medicare & Medicaid Services (CMS) to establish UPINs for all physicians who provide
          services to Medicare beneficiaries. Each physician is assigned one and only one UPIN.
          The CMS contracts with one company to maintain a database, the UPIN Registry, that
          contains relevant data on all assigned UPINs. Information regarding the practice settings
          (i.e., physical locations where the physician practices medicine) associated with a
          particular UPIN are included in the UPIN Registry. Medicare requires physicians to notify
          their local Part B carriers of any practice setting changes. In addition, local carriers have
          been instructed by CMS to inactivate practice settings for which there has been no claim
          activity during the previous 12 months. For the purposes of this report, we will refer to
          UPINs without any active practice settings as inactive, and UPINs that have never been
          assigned by Medicare as invalid.

          We compared the UPINs listed on 1999 medical equipment and supply claims to
          information contained in the UPIN Registry. We then identified Medicare payments for
          claims where the listed UPIN was either invalid or inactive on the date of service.


FINDINGS

Medicare paid $32 million for medical equipment and supply claims with invalid
UPINs in 1999

          In 1999, Medicare allowed charges for medical equipment and supply claims with invalid
          UPINs totaled $32 million. Approximately 14,000 different invalid UPINs were used on
          medical equipment and supply claims paid by Medicare. Seventy-eight percent of the

Claims with Invalid or Inactive Physician Numbers                                      OEI-03-01-00110
                                                    i
          invalid UPINs appearing on these claims in 1999 were associated with less than $1,000 in
          Medicare allowed charges. However, 106 of the invalid UPINs had more than $50,000 in
          allowed charges associated with them. One invalid UPIN was listed as the ordering
          physician by seven different suppliers on $1.1 million in Medicare claims.

Medicare paid $59 million for medical equipment and supply claims with inactive
UPINs in 1999

          In 1999, Medicare allowed $59 million for medical equipment and supply claims with
          UPINs that were inactive on the date of service. More than 28,000 inactive UPINs were
          listed on claims paid by Medicare in 1999. Thirty percent of these UPINs had been
          inactive for at least 3 years, and accounted for $10 million in payments. Some UPINs
          listed on medical equipment and supply claims had been inactive for more than 9 years as
          of the claim’s date of service.

A small number of suppliers accounted for a significant share of allowed charges
for claims with invalid or inactive UPINs
          Almost 25,000 (28 percent) of the approximately 90,000 suppliers that submitted claims
          to Medicare in 1999 used an invalid or inactive UPIN on at least one claim. One hundred
          suppliers alone accounted for $17 million of the $91 million in allowed charges for claims
          with invalid or inactive UPINs. Allowed charges for claims with invalid or inactive UPINs
          made up a very small share (less than 2 percent) of the average supplier’s 1999
          reimbursement. However, we identified 1,053 suppliers that had more than 30 percent of
          their 1999 allowed charges associated with invalid or inactive UPINs.


RECOMMENDATIONS

          We believe that our findings illustrate a significant vulnerability in Medicare’s claims
          processing system for medical equipment and supplies. Carriers should only pay for
          medical equipment and supply claims that include accurate UPINs. While it is possible
          that some of the equipment and supplies that we identified were medically necessary, the
          inability of Medicare systems to determine whether claims are submitted with invalid or
          inactive UPINs creates the potential for widespread abuse.

          In order to address the issues identified by this report, we recommend that CMS:

          Revise claims processing edits to ensure that UPINs listed on medical equipment and
          supply claims are valid and active.

          Emphasize to suppliers the importance of using accurate UPINs when submitting
          claims to Medicare.




Claims with Invalid or Inactive Physician Numbers                                    OEI-03-01-00110
                                                    ii
          We have provided CMS with 1999 data on medical equipment and supply claims with
          invalid or inactive UPINs for further analysis and review. The CMS, if necessary, will
          forward any suspected problematic claims to our Office of Investigations.

Agency Comments

          The CMS concurred with our recommendation concerning the revision of claims
          processing edits. The agency indicated that it has developed instructions, system changes,
          and edits which will reject claims listing a deceased physician’s UPIN. Once this initiative
          is implemented in April 2002, CMS plans to expand it to include all invalid and inactive
          UPINs. The CMS also agreed with our recommendation concerning supplier education.
          The full text of CMS’ comments is presented in Appendix A.

          We agree that CMS’ recent actions indicate that positive first steps are being taken, and
          look forward to its future initiatives involving UPINs. However, until these initiatives are
          in place, we believe that CMS should perform post-payment reviews in order to detect the
          use of invalid and inactive UPINs on medical equipment and supply claims.




Claims with Invalid or Inactive Physician Numbers                                      OEI-03-01-00110
                                                    iii
                              TABLE                     OF            CONTENTS


                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Invalid UPINs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Inactive UPINs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Suppliers Using Invalid or Inactive UPINs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


APPENDIX


          A. Centers for Medicare & Medicaid Services Comments . . . . . . . . . . . . . . . . . . . . . . . 7





Claims with Invalid or Inactive Physician Numbers                                                                   OEI-03-01-00110
                                                                  iv

                                      INTRODUCTION

PURPOSE

          This inspection examined Medicare payments for medical equipment and supply claims
          submitted with invalid or inactive unique physician identification numbers.


BACKGROUND

          Title XVIII of the Social Security Act establishes coverage and benefits under Part B of
          the Medicare program. Medicare beneficiaries covered by Part B are entitled to receive
          medical equipment and supplies that are deemed medically necessary by a physician. This
          benefit includes durable medical equipment (e.g., wheelchairs, hospital beds, home oxygen
          equipment) and supplies, as well as prosthetics and orthotics. The Centers for Medicare &
          Medicaid Services (CMS) contracts with four durable medical equipment regional carriers
          to process and pay medical equipment and supply claims. In 1999, Medicare reimbursed
          $6.2 billion for medical equipment and supplies.

          To obtain reimbursement for equipment and supplies provided to Medicare beneficiaries,
          suppliers submit a HCFA 1500 claim form to the durable medical equipment regional
          carrier serving their area. Medicare regulations require suppliers to provide the unique
          physician identification number (UPIN) of the physician who ordered the equipment on
          the HCFA 1500 claim form. Because Medicare payment for medical equipment and
          supplies is only authorized when it is ordered by a physician, claims with incorrect UPIN
          information should not be paid. However, according to CMS, Medicare claims processing
          systems only verify that the UPIN listed on a claim meets certain format requirements.
          Computer system edits are not performed to ensure that the UPIN has been assigned or is
          currently active.

Assignment and Use of UPINs

          The Consolidated Omnibus Budget Reconciliation Act of 1985 required CMS to establish
          UPINs for all physicians who provide services to Medicare beneficiaries. In 1994, CMS
          expanded the use of UPINs to other medical providers, such as nurse practitioners, and to
          group physician practices. In this report, we use the term “physician” to describe both
          physicians and other medical providers who are assigned UPINs. The CMS contracts with
          one company to maintain a database containing relevant information on all assigned
          UPINs. This database is known as the UPIN Registry.

          To be assigned a UPIN a physician completes Form HCFA 855 and submits it to the
          Part B carrier serving his or her geographic area. This form requires physicians to
Claims with Invalid or Inactive Physician Numbers                                   OEI-03-01-00110
                                                    1
          provide information such as their Social Security numbers, State licensing information, and
          medical specialties. Physicians also must provide a listing of all of their associated practice
          settings (i.e., physical locations where they practice medicine). As part of enrollment,
          carriers validate that the provider requesting the UPIN has the appropriate license(s)
          required by State law. Carriers then contact the contractor that maintains the UPIN
          Registry to request that a UPIN be issued to the physician. Each physician is assigned one
          and only one UPIN, though local carriers assign separate identifiers for each practice
          setting. Information regarding the practice settings associated with a particular UPIN are
          included in the UPIN Registry.

          Medicare requires physicians to notify their local Part B carriers of any address changes or
          practice setting closings. In addition, local carriers have been instructed by CMS to
          inactivate practice settings for which there has been no claim activity during the previous
          12 months. The local carrier is then responsible for notifying the contractor that maintains
          the UPIN Registry of these changes.

Related Work by the Office of Inspector General

          In 1999, the Office of Inspector General released a report entitled, “Accuracy of Unique
          Physician Identification Number Data,” (OEI-07-98-00410). This report found that
          although CMS has taken meaningful actions to enhance the accuracy of UPIN data, some
          problems continue to exist. For example, almost 23 percent of UPINs listed as active in
          the UPIN Registry had no claims activity within the previous year. The report
          recommended that CMS take steps to ensure that its carriers follow the issued guidelines
          concerning the inactivation of UPINs.


METHODOLOGY

Data Collection and Analysis

          We created a file containing 100 percent of 1999 medical equipment and supply claims
          from CMS’ National Claims History File. We obtained UPIN information by accessing a
          CMS database extracted from the UPIN Registry. The CMS’ UPIN database is composed
          of two separate files: one containing information on the active practice settings associated
          with a UPIN, and the other on the inactive practice settings.

          We first compared all of the UPINs listed on the 1999 claims to UPINs listed on the active
          practice settings file. As long as a UPIN on the claim had at least one active practice
          setting, or was a surrogate UPIN, we considered it to be active. Surrogate UPINs are five
          generic identifiers established by CMS to represent physicians who do not have a UPIN,
          e.g., resident physicians, retired physicians.

          The UPINs appearing on 1999 claims that did not appear in the active practice settings file
          and were not surrogate identifiers were then compared to the UPINs listed in the

Claims with Invalid or Inactive Physician Numbers                                        OEI-03-01-00110
                                                    2
          inactive practice settings file. Based on this comparison, we placed a UPIN into one of
          two categories:

          (1) Invalid: The UPIN listed on the claim does not appear in either the active or
              inactive practice settings file. The UPIN has not been assigned by Medicare.

          (2) Inactive: The UPIN listed on the claim appears in the inactive practice settings file
              but not the active file. The UPIN has been assigned, but it has either been inactivated
            by the physician, or all of its associated practice settings have been inactivated by
           carriers.

          We determined the number of invalid or inactive UPINs listed on 1999 medical equipment
          and supply claims. We then calculated the amount Medicare paid in 1999 for claims with
          UPINs that were invalid. We also calculated the amount Medicare paid in 1999 for claims
          with inactive UPINs, arraying the data by the length of time the UPINs had been inactive.
          We determined how long a UPIN had been inactive by comparing the date of service listed
          on its earliest 1999 claim to the most recent inactivation date of an associated practice
          setting.

          We summarized the UPIN data by procedure code. We also determined the allowed
          charges each supplier had with invalid or inactive UPINs, and whether or not any suppliers
          received a significant share of their Medicare reimbursement through the use of invalid or
          inactive UPINs. We used 10-digit supplier numbers when analyzing supplier data. Ten-
          digit numbers identify each physical location where a supplier conducts business.
          However, each location may be part of a larger medical equipment supply company.




Claims with Invalid or Inactive Physician Numbers                                      OEI-03-01-00110
                                                    3
                                                FINDINGS

Medicare paid $32 million for medical equipment and supply
claims with invalid UPINs in 1999
          In 1999, Medicare’s allowed charges for medical equipment and supply claims with invalid
          UPINs totaled $32 million. Approximately 14,000 different invalid UPINs were used on
          medical equipment and supply claims paid by Medicare. Three-quarters of the invalid
          UPINs had the correct format and started with an appropriate letter. The remaining
          invalid UPINs began with a letter for which no UPINs had ever been issued. This means
          that the UPIN could easily be identified as one which was never assigned.

          Seventy-eight percent of the invalid UPINs appearing on medical and supply claims in
          1999 were associated with less than $1000 in Medicare allowed charges. However, 106
          of the invalid UPINs were associated with more than $50,000 in allowed charges. One
          invalid UPIN was listed as the ordering physician by seven different suppliers on      $1.1
          million in Medicare claims. Out of the nearly 500,000 UPINs that were used on Medicare
          medical equipment and supply claims in 1999, this invalid UPIN ranked        fifty-second
          in overall allowed charges.


Medicare paid $59 million for medical equipment and supply
claims with inactive UPINs in 1999
          In 1999, Medicare paid $59 million in allowed charges for medical equipment and supply
          claims with UPINs that were inactive on the date of service. Almost $8 million of this
          amount involved UPINs for physicians who had died prior to the dates of service listed on
          the claims. More than 28,000 inactive UPINs were listed on medical equipment and
          supply claims paid by Medicare in 1999. Thirty percent of these UPINs had been inactive
          for at least 3 years, and accounted for $10 million in Medicare payments. Some UPINs
          listed on medical equipment and supply claims had been inactive for more than     9 years
          at the time of the claims’ dates of service.

          There may be explanations why inactive UPINs are associated with certain types of
          services. For instance, once beneficiaries qualify for oxygen therapy, they may use it for
          the rest of their lives. Therefore, procedure codes for oxygen equipment and supplies
          could be billed for a period of time after the UPIN of the physician who initially ordered
          the equipment and supplies had been inactivated. Furthermore, certain other pieces of
          medical equipment, such as wheelchairs and hospital beds, are usually rented for an
          extended period of time. Suppliers bill Medicare a rental fee for this equipment, known as
          capped-rental items, for up to 15 consecutive months. In these cases, a claim submitted
          with a UPIN that had been inactive for less than a year would not necessarily

Claims with Invalid or Inactive Physician Numbers                                     OEI-03-01-00110
                                                    4
          be problematic. The physician who originally ordered the equipment may have retired or
          died within the rental period. However, if the UPIN had been inactive for over 2 years on
          the claim’s date of service, this would indicate that the UPIN was inactive at the time the
          item was ordered. Of the $59 million paid in 1999 for claims with inactive UPINs, $14
          million was for oxygen-related services and almost $7.3 million was for         capped-
          rental items. However, 42 percent ($3 million) of the allowed charges for capped-rental
          items were associated with UPINs that had been inactive for more than 2 years.


A small number of suppliers accounted for a significant
share of allowed charges for claims with invalid or inactive
UPINs
          Almost 25,000 (28 percent) of the approximately 90,000 suppliers that submitted claims
          to Medicare in 1999 used an invalid or inactive UPIN on at least one claim. One hundred
          suppliers alone accounted for $17 million of the $91 million in allowed charges for claims
          with invalid or inactive UPINs. One supplier was responsible for $1.2 million in Medicare
          allowed charges for claims with invalid or inactive UPINs, using over 1,700 of these
          UPINs on medical equipment and supply claims in 1999.

          Allowed charges for claims with invalid or inactive UPINs made up a very small share
          (less than 2 percent) of the average supplier’s 1999 reimbursement. However, we
          identified 1,053 suppliers that had more than 30 percent of their 1999 allowed charges
          associated with invalid or inactive UPINs. One supplier had 62 percent of its allowed
          charges ($365,849 of $588,563) associated with one invalid UPIN.




Claims with Invalid or Inactive Physician Numbers                                     OEI-03-01-00110
                                                    5
                            RECOMMENDATIONS

          We believe that our findings illustrate a significant vulnerability in Medicare’s claims
          processing system for medical equipment and supplies. Carriers should only pay for
          medical equipment and supply claims that include accurate UPINs. While it is possible
          that some of the equipment and supplies that we identified were medically necessary, the
          inability of Medicare systems to determine whether claims are submitted with invalid or
          inactive UPINs creates the potential for widespread abuse.

          In order to address the issues identified by this report, we recommend that CMS:

          Revise claims processing edits to ensure that UPINs listed on medical equipment and
          supply claims are valid and active.

          Emphasize to suppliers the importance of using accurate UPINs when submitting
          claims to Medicare.

          We have provided CMS with 1999 data on medical equipment and supply claims with
          invalid or inactive UPINs for further analysis and review. The CMS, if necessary, will
          forward any suspected problematic claims to our Office of Investigations.

Agency Comments

          The CMS concurred with our recommendation concerning the revision of claims
          processing edits. The agency indicated that it has developed instructions, system changes,
          and edits which will reject claims listing a deceased physician’s UPIN. Once this initiative
          is implemented in April 2002, CMS plans to expand it to include all invalid and inactive
          UPINs. The CMS also agreed with our recommendation concerning provider education.
          The full text of CMS’ comments is presented in Appendix A.

          We agree that CMS’ recent actions indicate that positive first steps are being taken, and
          look forward to its future initiatives involving UPINs. However, until these initiatives are
          in place, we believe that CMS should perform post-payment reviews in order to detect the
          use of invalid and inactive UPINs on medical equipment and supply claims.




Claims with Invalid or Inactive Physician Numbers                                      OEI-03-01-00110
                                                    6
                                                         APPENDIX A



        Centers for Medicare & Medicaid Services Comments





Claims with Invalid or Inactive Physician Numbers            OEI-03-01-00110
                                                    7

